<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM</title>
<body><pre>[Senate Hearing 109-1031]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1031
 
                    COMPREHENSIVE IMMIGRATION REFORM

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2005

                               __________

                          Serial No. J-109-34

                               __________

         Printed for the use of the Committee on the Judiciary




                   U.S. GOVERNMENT PRINTING OFFICE
46-017 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....    12
    prepared statement...........................................    71
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     8
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    10
    prepared statement...........................................   116
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   118
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     6
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   157
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Daub, Hal, President and Chief Executive Officer, American Health 
  Care Association (AHCA) and National Center for Assisted Living 
  (NCAL), on behalf of the Essential Worker Immigration 
  Coalition, Washington, D.C.....................................    15
Endelman, Gary, Immigration Counsel, B.P. America, Houston, Texas    19
Jacoby, Tamar, Senior Fellow, Manhattan Institute, New York, New 
  York...........................................................    17
McCain, Hon. John, a U.S. Senator from the State of Arizona......     4

                         QUESTIONS AND ANSWERS

Questions submitted to Mr. Hal Daub and Mr. Gary Endelman by 
  Senator Cornyn (Note: Responses to written questions were not 
  available at time of printing.)................................    28

                       SUBMISSIONS FOR THE RECORD

American Immigration Lawyers Association, Washington, D.C., 
  letter.........................................................    29
American Jewish Committee, New York, New York, letter............    30
Arab Community Center for Economic and Social Services, Hannan 
  Deep, Dearborn, Michigan, letter...............................    31
Arizona Daily Star, Tucson, Arizona:
    May 15, 2005, editorial......................................    32
    July 10, 2005, editorial.....................................    34
    July 20, 2005, editorial.....................................    37
Arizona Republic, Phoenix, Arizona:
    May 13, 2005, editorial......................................    39
    July 21, 2005, editorial.....................................    41
Arizona Interfaith Network, Dick White, Phoenix, Arizona, letter.    43
Arkansas Democrat Gazette, Little Rock, Arkansas:
    May 24, 2005, editorial......................................    44
    June 17, 2005, editorial.....................................    46
Association of Community Organizations for Reform Now, (ACORN), 
  Allison Conyers, Brooklyn, New York, letter....................    48
Atlanta Journal-Constitution, Atlanta, Georgia, May 22, 2005, 
  editorial......................................................    49
Austin American-Statesman, Austin, Texas, May 17, 2005, editorial    51
Baltimore Sun, Baltimore, Maryland, May 17, 2005, editorial......    52
Barnes, Most Reverend Gerald R., Chairman, United States 
  Conference of Catholic Bishops' Committee on Migration, 
  Washington, D.C., prepared statement and attachments...........    53
Boston Globe, Boston Massachusetts:
    May 21, 2005, editorial......................................    69
    July 26, 2005, editorial.....................................    70
Business Week, July 8, 2005, editorial...........................    74
Center for American Progress, Rajeev Goyle and David A. Jaeger, 
  Washington, D.C., statement....................................    76
Chicago Tribune, Chicago, Illinois, May 17, 2005, editorial......    77
Coalition for Humane Immigrant Rights of Los Angeles, Alvaro 
  Huerta, statement..............................................    78
Concord Monitor, Concord, New Hampshire, May 15, 2005, editorial.    79
Conservatives and business representatives, joint statement......    81
Daily Journal, Tupelo, Mississippi, May 17, 2005, editorial......    83
Dallas Morning News, Dallas, Texas, June 16, 2005, editorial.....    85
Daub, Hal, President and Chief Executive Officer, American Health 
  Care Association (AHCA) and National Center for Assisted Living 
  (NCAL), on behalf of the Essential Worker Immigration 
  Coalition, Washington, D.C., prepared statement................    86
Denver Post, Denver, Colorado, June 12, 2005, editorial..........    91
East Valley Tribune, Mesa/Scottsdale, Arizona, May 13, 2005, 
  editorial......................................................    93
The Economist, London, United Kingdom, May 21, 2005, editorial...    94
El Diario/La Prensa, New York City, New York:
    June 15, 2005, editorial.....................................    96
    June 15, 2005, editorial (in Spanish)........................    96
El Paso Times, El Paso, Texas, July 5, 2005, editorial...........    98
Embassy of Honduras, Washington, D.C., prepared statement........    99
Endelman, Gary, Immigration Counsel, BP America, Houston, Texas..   107
Essential Worker Immigration Coalition, Washington, D.C., letter 
  and attachment.................................................   113
Fair Immigration Reform Movement, Washington, D.C., letter.......   115
Grand Rapids Press, Grand Rapids, Michigan, June 1, 2005, 
  editorial......................................................   122
Greeley Tribune, Greeley, Colorado, June 2, 2005, editorial......   124
Heartland Alliance for Human Needs & Human Rights/Midwest 
  Immigrant & Human Rights Center, Chicago, Illinois, letter.....   126
Hebrew Immigrant Aid Society, New York, New York, letter.........   127
Hola Hoy, (LA, Chicago, New York City), May 27, 2005, article (in 
  Spanish).......................................................   129
Houston Chronicle, Houston, Texas:
    July 10, 2005, editorial.....................................   130
    May 29, 2005, editorial......................................   131
Idaho Community Action Network, Boise, Idaho, press release......   132
Idaho Mountain Express, Sun Valley, Idaho, June 3, 2005, 
  editorial......................................................   133
Illinois Coalition for Immigrant and Refugee Rights, Chicago, 
  Illinois, letter...............................................   134
Immigrant Rights Network of Iowa and Nebraska, Des Moines, Iowa, 
  letter.........................................................   135
Immigration Equality, New York, New York, prepared statement.....   136
International Franchise Association, Washington, D.C., press 
  release........................................................   141
Jacoby, Tamar, Senior Fellow, Manhattan Institute for Policy 
  Research, New York, New York, prepared statement...............   142
Jesuit Conference Office of Social and International Ministries 
  and Jesuit Refugee Service USA, Washington, D.C., statement....   149
Laborers' International Union of North America, Washington, D.C., 
  press release..................................................   151
La Noticia, July 12, 2005, editorial.............................   153
La Opinion:
    May 13, 2005, editorial (in Spanish).........................   155
    June 6, 2005, editiorial.....................................   156
League of United Latin American Citizens, Washington, D.C., press 
  release........................................................   159
Lebanon Daily News, Lebanon, Pennsylvania, June 15, 2005, 
  editorial......................................................   160
Long Beach Press Telegram, Long Beach, California, May 14, 2005, 
  editorial......................................................   161
Longmont Daily Times-Call, Longmont, Colorado, May 29, 2005, 
  editorial......................................................   162
Los Angeles Times, Los Angeles, California, July 24, 2005, 
  editorial......................................................   163
Lutheran Immigration and Refugee Service, Baltimore, Maryland, 
  news release...................................................   164
Massachusetts Immigrant & Refugee Advocacy Coalition, Boston, 
  Massachusetts, press statement.................................   166
Mexican American Legal Defense and Educational Fund, Los Angeles, 
  California, statement..........................................   168
Miami Herald, Miami, Florida, May 23, 2005, editorial............   170
Milwaukee Journal Sentinel, Milwaukee, Wisconsin, May 15, 2005, 
  editorial......................................................   171
National Asian Pacific American Legal Consortium, Washington, 
  D.C., press release............................................   172
National Council of La Raza, Janet Murguia, President and CEO, 
  Washington, D.C., statement and attachment.....................   174
National Immigration Forum, Washington, D.C., press release......   188
National Immigration Law Center, Washington, D.C., statement.....   190
National Korean American Service & Education Consortium, Inc., 
  Los Angeles, California, press statement.......................   192
National Restaurant Association, Washington, D.C., news release..   194
New American Opportunity Campaign , Los Angeles, California:
    May 17, 2005 letter..........................................   196
    May 19, 2005 letter..........................................   198
    June 1, 2005 letter..........................................   200
    July 19, 2005 letter.........................................   201
News-Times, Danbury, Connecticut, June 17, 2005, editorial.......   202
New York Daily News, New York, New York:
    May 15, 2005, editorial......................................   204
    June 13, 2005, editorial.....................................   205
New York Immigration Coalition, New York, New York, press 
  statement......................................................   206
New York Sun, New York, New York, June 6, 2005, editorial........   207
New York Times, New York, New York, May 20, 2005, editorial......   208
Palm Beach Post, Palm Beach, Florida, May 28, 2005, editorial....   209
Pasadena Star-News, Pasadena, California, May 22, 2005, editorial   210
People for the American Way, Washington, D.C., press release.....   212
Pittsburgh Post-Gazette, Pittsburgh, Pennsylvania, June 1, 2005, 
  editorial......................................................   213
Raleigh News & Observer, Raleigh, North Carolina, May 31, 2005, 
  editorial......................................................   214
The Republican, Springfield, Massachusetts, May 16, 2005, 
  editorial......................................................   216
Rochester Democrat and Chronicle, Rochester, New York, May 23, 
  2005, editorial................................................   217
San Jose Mercury News, San Jose, California, May 19, 2005, 
  editorial......................................................   218
Service Employees International Union, AFL-CIO, Washington, D.C., 
  press release..................................................   219
Sierra Vista Herald, Sierra Vista, Arizona, May 16, 2005, 
  editorial......................................................   220
The Tennessean, Nashville, Tennessee, May 24, 2005, editorial....   222
El Tiempo Latino, Washington, D.C., May 20, 2005, editorial (in 
  Spanish).......................................................   223
The Times of Trenton, Trenton, New Jersey, May 21, 2005, 
  editorial......................................................   224
Toledo Blade, Toledo, Ohio, June 9, 2005, editorial..............   225
Tucson Citizen, Tucson, Arizona:
    May 17, 2005, editorial......................................   226
    May 27, 2005, editorial......................................   227
    June 7, 2005, editorial......................................   228
    July 6, 2005, editorial......................................   229
United Farm Workers of America, AFL-CIO, Keene, California, 
  letter.........................................................   230
United States Chamber of Commerce, Washington, D.C., statement...   231
U.S. Committee for Refugees and Immigrants, Washington, D.C., 
  letter.........................................................   232
Unite Here International Union, Washington, D.C., letter.........   234
Victoria Advocate, Victoria, Texas, July 10, 2005, editorial.....   235
La Voz, Phoenix, Arizona, May 25, 2005, editorial (in Spanish)...   237
Wall Street Journal, New York, New York, July 20, 2005, editorial   238
Washington Post, Washington, D.C.:
    May 14, 2005, editorial......................................   240
    July 26, 2005, article.......................................   241
West Hawaii Today, Kailua-Kona, Hawaii, May 17, 2005, editorial..   243


                    COMPREHENSIVE IMMIGRATION REFORM

                              ----------                              


                         TUESDAY, JULY 26, 2005

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, Kyl, DeWine, Cornyn, Brownback, 
Kennedy, and Feingold.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. The 
hour of 9:30 having arrived, the Judiciary Committee will now 
proceed with this hearing scheduled on comprehensive 
immigration reform. We will be joined today by four of our 
distinguished colleagues: Senator Kennedy, then Senator McCain, 
who have introduced Senate bill 1033 on the subject; and 
Senator Kyl and Senator Cornyn, who have introduced Senate bill 
1438 on the subject.
    We will be proceeding with Senator Kennedy doing double 
duty both as a witness at the start and also acting as Ranking 
Member, so Senator Leahy will not be with us, at least at the 
outset of this hearing.
    The issue of immigration is one of the major problems 
facing the United States today, as it is well known. It was 
addressed by the President in a major speech on January 7th of 
2004, and it has continued to be a matter of enormous 
importance.
    The Judiciary Committee has moved the subject matter to its 
agenda in advance of the August recess so that we could try to 
move ahead with the markup on a bill with a view to having 
legislation enacted this year. That, of course, is dependent 
upon what the House does and what the Majority Leader 
schedules, but this Committee is going to focus on it because 
of its enormous importance.
    The foreign-born population of the United States is 
currently estimated to be in excess of 33 million people, equal 
to more than 11 percent of the United States population. The 
United States Census Bureau now estimates that there are some 
20 million foreign-born workers in the labor force, which 
accounts for some 14 percent of the more than 144 million 
workers in America. There are varying statistics as to how many 
illegal immigrants there are in the United States, with the 
figures running from 10.3 million, according to the Pew 
Hispanic Center, to in excess of 13 million, according to the 
Federation for American Immigration Reform.
    There is a concern that there will be a shortage of 
workers, both skilled and unskilled. In the immediate future, 
the Bureau of Labor Statistics estimates that by the year 2008 
the United States will have 154 million workers for 161 million 
jobs, and by 2010, they estimate that the United States will 
experience a 10-million-person labor shortage.
    There have been repeated efforts to modify the entry 
requirements for highly skilled immigrants. There is a general 
consensus that amnesty is the wrong answer and that we ought 
not to reward people who are here illegally and put them ahead 
in any way of those who have gone through the normal processes 
of legal entry and the complex applications for citizenship.
    The subject of immigration is a very personal one for me. 
Both of my parents were immigrants. My father came to the 
United States at the age of 18 from Russia, in 1911, served in 
World War I, made a contribution to this country. My mother 
came at the age of 6 with her parents from Russia in 1906. We 
are a Nation of immigrants. But there are limitations as to 
what can be undertaken, and it ought to be done in a lawful 
way. And we are indebted to the Senators who are here this 
morning for the leadership which they have shown. The 
Subcommittee has had a series of hearings, and we are in a 
position to move forward.
    I am going to yield back the balance of 53 seconds because 
I would like to maintain the timely hearing pace. As you 
doubtless know, we have five stacked votes at 10:15, so we are 
going to have to manage how we will take the hearings, but I am 
sure we will have sufficient time to hear from our 
distinguished opening panelists.
    Senator Kennedy, it would take too long to present your 
resume, so I will just call on the senior Senator from 
Massachusetts.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman. I want 
to say how grateful I am to have had the opportunity to work 
with my friend and colleague, Senator McCain, on this 
bipartisan, bicameral legislation, and we welcome--first of 
all, we thank you for having the hearing this morning on this 
extremely important legislation. It is an issue that is not 
going to go away. It is going to grow in its dimension, and we 
feel that we have a constructive approach to try and deal with 
it.
    We are disappointed that the administration is not here 
this morning. We commend the President for raising this issue. 
We have many areas in which we are in harmony with the 
administration. We have some areas that are very, very 
important that are different. But, nonetheless, I think the 
President deserves credit for challenging us in the Congress to 
come up with ways of trying to address it in a bipartisan way.
    Chairman Specter. Senator Kennedy, let me join you in the 
regrets that we do not have the administration officials here. 
We were notified late on Friday that Secretary of Labor Chao 
would not be here and Secretary of Homeland Security Chertoff 
would not be here. But we decided to go ahead with the hearing. 
We are going to do our work, and when the administration wants 
to chime in, we will be ready to listen.
    Senator Kennedy. Well, thank you, and we appreciate your 
moving ahead and we will look forward to having their ideas.
    There is no question, Mr. Chairman, that the immigration 
system needs to be fixed. The evidence is all around us: 
exploited workers, divided families, deaths in the desert fake 
documents, criminal smugglers, community tensions, and public 
frustration. The American people are demanding we mend this 
broken system once and for all, and we now have the best 
opportunity to do it in many years.
    For too long, the debate was mired in the past. We need to 
deal with the growing complexity of the immigration challenge 
in this new century. The past debate has long been polarized 
between those who want more enforcement and those who want more 
visas. But to repair what is broken we need to combine 
increased enforcement and increased legality. Better border 
control and better treatment of immigrants are not 
inconsistent. They are the two sides to the same coin.
    The past debate pits national security against immigration 
reform as if they were inconsistent, but the best way for us to 
know who is here and who is coming here is to combine strict 
enforcement with realistic reforms in admission.
    The past debate pits immigrant workers against native-born 
workers. Today we recognize the best way to help all workers is 
to eliminate the culture of illegality that undermines the 
wages and working conditions of all Americans.
    The past debate was over whether illegal workers should all 
be deported or all be legalized. The new debate recognizes the 
importance of assisting those who want to return to their home 
country while also recognizing that many immigrants want to 
settle in America and become full members of the Nation's 
family. We are both a Nation of immigrants and a Nation of 
laws. That is not inconsistent.
    Senator McCain and I, along with Senators Brownback, 
Lieberman, Graham, Salazar, Congressmen Kolbe, Flake, and 
Gutierrez have introduced bicameral, bipartisan legislation 
that offers practical solutions to deal with the basic problems 
we face. It combines tough, targeted enforcement with adequate 
legal channels and proper screening for workers and family 
members crossing the border. Its goals are clear: to bring 
immigrants out of the shadows and shut down the black markets, 
restore the rule of law to our borders and our workplaces and 
in our communities.
    Today, an estimated 11 million authorized immigrants have 
lived in the United States for many years. They care for our 
children and our elderly parents. They harvest our crops as 
farmers. They help build and clean America's homes and 
buildings. As the recent Wall Street Journal editorial stated, 
`More enforcement' is a slogan, not a solution. We have tried 
more enforcement, and it did not work. We do not have the 
resources to deport those who are here.
    According to a report issued today by the Center for 
American Progress, to do so would cost at least $206 billion 
over the next 5 years--$41 billion a year, more than the entire 
budget of the Department of Homeland Security for fiscal year 
2006.
    Our plan offers a realistic alternative, not an amnesty. 
There is no free pass, no automatic pardon, no trip to the 
front of the line, but we do provide a sensible plan that will 
persuade people to come forward to receive work permits and 
earn legal status. They will pay a substantial fine and go 
through rigorous security and criminal background. Those who 
want a permanent residence must pay all their back taxes, learn 
English, maintain a strong record, stay out of trouble, and 
wait their turn.
    A bipartisan effort is essential to get this done. Senator 
McCain has provided the leadership, and I look forward to 
working with him and our colleagues on both sides of the aisle 
to enact responsible, long overdue reform to solve this 
difficult problem.
    I thank the Chairman.
    Chairman Specter. Well, thank you very much, Senator 
Kennedy.
    The practice of the Committee and I think generally is to 
proceed along lines of seniority. Your resume is not quite as 
long as Senator Kennedy's, but it is very long, Senator McCain, 
so we will call on the senior Senator from Arizona.

STATEMENT OF HON. JOHN McCAIN, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Thank you, Senator. I know that I look 
considerably younger as well.
    [Laughter.]
    Senator McCain. I thank you, Mr. Chairman, for holding this 
hearing. I have been very pleased to work with Senator Kennedy 
on this issue along with Senator Brownback, who is here, 
Senators Lieberman and Salazar, and Congressmen from both sides 
of the aisle on the other side of the Capitol.
    Illegal immigration represents a threat to our National 
security, to our economy, to our health care system, and to 
State and local government budgets. We all know that. We all 
know that it is a rising and terrible crisis in America, 
particularly in certain parts of it. It is a humanitarian issue 
as well. Mr. Chairman, I would just mention a few statistics.
    Last year, more than 300 people died trying to cross our 
Southern border, and more than 200 of them occurred in 
Arizona's desert. This year's numbers are expected to increase. 
An estimated 3,000 people enter the U.S. illegally from Mexico 
every single day. Every single day 3,000 people, and last year 
1.1 million illegal immigrants were caught by the Border 
Patrol.
    Several weeks ago, in Phoenix, Mr. Chairman, 79 people were 
found in a Phoenix alley crammed into a commercial horse 
trailer. The heat was over 100 degrees, and they had been there 
for several days. Of the 79, 11 were children, including a 4-
month-old baby. At the beginning of this summer, when the 
temperature in the desert rose unexpectedly, 12 people died 
crossing into Arizona in one weekend.
    Enforcement is obviously the key, Mr. Chairman, and as 
Senator Kennedy pointed out, we lead with enforcement. We have 
to have better enforcement. We have to use high tech. We have 
to do a lot of things, including get cooperation from Mexico 
and our Central American neighbors. Recognizing our bill 
requires the implementation of a mandatory employment 
verification system, using a tamper-resistant, biometric, 
machine-readable identification, employers will have concrete 
confirmation that the individual they hire is authorized to 
work or is not.
    What they will no longer have is an excuse to break the 
law. The bill doubles the fines. We expects billions of dollars 
to be gained that could be used for a variety of reasons, 
including border enforcement as well as other border 
activities, and in the Department of Homeland Security, the 
Department of Labor, and Social Security Administration.
    Now, there remains a key issue, Mr. Chairman, that must be 
addressed: the current undocumented. Today there is an 
estimated 11 million people living illegally in our country. 
One analysis by Bear, Stearns argues the number could be as 
high as 20 million. Regardless where you are on the political 
spectrum, the fact that 11 million or more people are living 
and working in this country without proper documentation would 
be a concern to all of us. The question is: What are we going 
to do about it?
    The reality is 11 million people are not going to 
voluntarily come out of the shadows just to be shipped home. 
Report to deport is not a reality, and it is not workable. 
Systematically rounding up every person living here illegally 
and sending them home is not a viable option either. It is 
neither practically possible nor economically feasible.
    We are not proposing amnesty. We are not proposing an 
amnesty bill. We tried amnesty in this country in 1986 and it 
did not work, and it will not work in 2005 either. We cannot 
reward lawbreakers, but we also have to deal with the reality 
of our enormous undocumented population. We have a national 
interest in identifying these individuals, providing them with 
incentives to come out of the shadows, go through security 
background checks, pay back taxes, pay penalties for breaking 
the law, learn to speak English, and regularize their status.
    This can be accomplished, and I believe that this is a key 
item of the discussion that we should have. What about the 11 
or 12 or 20 million people? To think that they are going to 
come out of the shadows and say, ``Send me back to Guatemala, I 
have been living in Phoenix for 50 years,'' borders on fantasy.
    What the proposal that Senator Kennedy and I have is that 
they pay a hefty fine, they get in line. It could take as long 
as 11 years to obtain citizenship, and that is the key to this. 
Pay fines. They came to this country illegally and they deserve 
to be punished for doing so. No one should be rewarded for 
doing so. But we propose a regularized system that people can 
pay fines, as much as $2,000; they can apply to work; they can 
work for as long as 6 years, then get eligibility for a green 
card and get behind everybody else. We think that is a fair and 
equitable way to address this system.
    Finally, Mr. Chairman, we have to address this issue. We 
cannot wait. We cannot wait. The problem worsens every single 
day. Today somebody will die in the desert in Arizona, probably 
more than one. And today somebody will be hired illegally and 
be exploited in a broad variety of ways because when people 
have no protections of our laws, they are subject to 
exploitation and brutality. And, third of all, obviously, it is 
a matter of national security.
    I thank you, Mr. Chairman, for your time, and thank you for 
holding this hearing.
    Chairman Specter. Thank you very much, Senator McCain.
    We have the entire Arizona senatorial delegation here 
today. Senator Kyl, thank you for your leadership on this 
issue, and you are recognized.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and I would note that 
I certainly share the passion of my colleague from Arizona. We 
have spent a lot of time on the border together, and the 
description of the situation in our home State is exactly as 
Senator McCain has described it.
    I do appreciate your scheduling this hearing so that we can 
get an early start on this immigration reform because, as 
Senator McCain noted, we have got to get this issue resolved as 
soon as we can.
    Last week, Senator Cornyn and I introduced what we call the 
Comprehensive Enforcement and Immigration Reform Act of 2005. 
The two of us both chair Subcommittees of this Committee, one 
covering immigration and the other, terrorism and homeland 
security issues. We have held seven separate hearings jointly 
with our two Subcommittees on national security and border 
control, interior enforcement, the national economic 
consequences, the role of foreign governments in the 
immigration area--a whole variety of subjects designed to try 
to help us understand how best to craft this legislation. And I 
think we did our homework, and we have certainly taken our time 
in crafting our bill.
    A lot of my constituents have basically asked the question: 
Why would we think that any new bill will work and be enforced 
if we have not been willing to enforce the current law? And it 
is a fair question for any proposal that claims to resolve this 
crisis.
    The primary reason I believe our bill represents a genuine 
solution is that it contains tough and overlapping measures to 
enforce the law at our borders, in the interior, and at the 
workplace. And it provides the resources necessary to enforce 
those measures, adding thousands of new Border Patrol agents, 
investigators to combat smuggling, fraud, and workplace 
violations, adding $5 billion over 5 years to acquire and 
improve the technology and infrastructure needed to gain 
operational control of the border, and adding 10,000 new 
detention beds to ensure that immigration violators are held 
until their removal from the United States.
    We believe that this layered approach to immigration 
enforcement will yield significant benefits, giving the United 
States operational control over its borders, ensuring that our 
proposed temporary worker program is free of fraud and abuse, 
and dealing with employers and illegal aliens who refuse to 
comply with the law.
    The legislation will benefit employers who seek to legally 
hire foreign workers for a temporary period. It requires that a 
Social Security-based worker verification system be implemented 
within a year of enactment and that employers electronically 
verify the Social Security numbers of everyone who applies for 
a job here in the United States.
    Within that same year, the Social Security Administration 
will identify the sources of false, incorrect, or expired 
Social Security numbers and eliminate them. With most bad 
numbers removed from the system, only those individuals with 
valid Social Security numbers will be approved for hire.
    The Social Security Administration will improve the 
integrity of the employment verification system by providing 
machine-readable, highly tamper-resistant Social Security cards 
within 1 year. By 2008, which is the effective date of the REAL 
ID Act, job candidates will be cleared for employment only 
after confirmation that their Social Security cards are 
authentic. And by 2008, the only documents that may be 
presented to establish identity will be federally issued 
identification documents or State driver's licenses or 
identification cards that comply with the REAL ID Act.
    In addition to the Social Security-based employment 
verification system, an alien must produce a biometric 
identifying card to the employer. The employer will verify the 
work authorization through the employment verification system 
and must scan the card to verify the employment status with the 
Department of Homeland Security. So all of the workers will 
have passed a background check with DHS before they are issued 
their card.
    Mr. Chairman, there are a variety of other tools that help 
to make the worker verification system more secure, including 
minimum standards for birth certificates. In addition to that, 
we authorize funding for 10,000 DHS work site investigators 
over a period of 10 years who are needed to combat the hiring 
of illegal aliens who do not qualify for a job, and that is 
necessary to support the integrity of the program. We have 
tough new penalties, and the bottom line is that we think that 
this verification system will actually result in enforcement of 
the law.
    A final point. Our law does not offer amnesty to illegal 
aliens. There are incentives for them to eventually return to 
their home country. Those presently present in the U.S. pay 
increasing fees for each year that they do not depart, and they 
are required to return home after a period of 5 years. But let 
me make it very clear. There is nothing in our bill that 
deports these illegal immigrants. There is nothing in our bill 
that deports these illegal immigrants. Those who seek permanent 
residence and eventual citizenship will have to return home and 
apply from their home countries, but that is the time-honored 
and legal method of doing so today.
    In conclusion, our bill aims to resolve the crisis of 
illegal immigration with a combination of improved enforcement 
and new, easier-to-use guest worker programs. We have tried to 
strike the right balance, and maybe we have succeeded because I 
know we have been criticized from both sides. But the bottom 
line is and our hope is that we will get the border under 
control; we will have the opportunity to examine and clear 
every worker gaining entrance to our country; we will no longer 
read with alarm and sorrow about aliens being abused by 
smugglers or dying in the desert; and we will have created 
opportunities for foreign workers to participate legally in our 
economy, which will benefit those workers, their employers, and 
the American public.
    Thank you again, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Kyl.
    We turn now to Senator John Cornyn. Senator Cornyn is the 
Chairman of the Immigration Subcommittee of Judiciary and, as 
noted, he and Senator Kyl have worked on a series of joint 
hearings. Thank you for your leadership on this issue, Senator 
Cornyn, and we look forward to your testimony.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman, for 
scheduling this important hearing during the otherwise crowded 
work schedule of the Judiciary Committee. As you have noted, I 
have worked closely with Senator Kyl on the bill that Senator 
Kyl has begun to describe, but I also want to acknowledge and 
express my appreciation to Senators Kennedy and McCain for 
their leadership and the contribution of good ideas that they 
have come up with. We happen to think that ours has the edge, 
but we recognize that no single person, no single group has a 
claim to all the good ideas. So we look forward to working 
together.
    But we do recognize, as we have all stated here today, that 
our immigration system is broken. The number of illegal aliens 
in the United States has risen dramatically since 9/11 and has 
grown approximately by 30 percent since the year 2000. There is 
a financial burden on local hospitals and governments each 
year, and we know that terrorists are aware of the cracks in 
our system and are looking into ways to exploit them. And so it 
is simply imperative, as a matter of national security, that we 
deal with this as well as, as you have noted, and others, 
restoring our reputation as a Nation of laws in addition to our 
well-deserved reputation as a Nation of immigrants.
    We believe that our bill will restore America's faith in 
immigration and meet the needs of the country both from a 
security perspective and from an economic perspective. The bill 
we have introduced is based on principles shared by all of us: 
the rule of law and equal treatment of all immigrants.
    I believe that the vast majority of undocumented immigrants 
in this country are here for reasons that we all would 
understand. They simply want to provide for their families, and 
they have no hope and no opportunity where they live. So they 
come here. I also believe that a vast majority of them would be 
willing to go through the normal legal immigration process if 
given a chance.
    Yet a proposal that transitions that population back into a 
legal status will only work if the solution is fair and does 
not create an incentive for others to violate the law. Our 
proposal requires undocumented workers in the United States to 
register and go through the normal immigration process. It is 
true that they must depart the United States temporarily, but 
they may then, if they qualify, re-enter the country in a legal 
status. They can return in any legal status--as a temporary 
worker or, if eligible, for a green card--so long as it is 
legal. And we do not foreclose or restrict their path to 
permanent citizenship or residency. All we ask is that they 
achieve those rights in the same way as all other immigrants.
    Now, there have been broad claims that I have read about 
those who say a system will or will not work, and I guess we 
all have strong opinions. But I think it is important that they 
be informed by the research. And to that point, a recent Pew 
Hispanic Center study shows that the vast majority, by a ratio 
of 4 to 1, of undocumented workers would come forward to 
participate in a program that would allow them to work 
temporarily in the United States on the condition that they 
ultimately return home to their home country. Interestingly, 
that same survey of almost 5,000 undocumented immigrants who 
are applying for their matricular consular card here in the 
United States revealed that the percentage of migrants who said 
they would come forward and participate did not increase when 
the proposal included a direct path to a green card from within 
the United States.
    But we must also be realistic about how long it will take 
for the 10 million people, approximately, who are in our 
country to return in a legal status, and it is essential that 
that transition be humane and orderly. Our proposal, therefore, 
allows undocumented workers up to 5 years to accomplish this 
process, and while they are in the United States during that 5-
year period, they may still work and travel, but out of the 
shadows and out in the open with the full protection of our 
laws.
    It is not my intent to strand workers outside of the United 
States. It is to find a way to transition undocumented workers 
back into the legal immigration process without disrupting our 
economy.
    I would say one of the key features of our bill, from my 
way of thinking, and our temporary worker program is that it 
embodies what I call the work and return principle, not a work 
and stay principle. It is truly a temporary program, which is 
important to meet the labor needs of the United States because 
these workers, as noted, do contribute mightily to our economy. 
But it is also important to countries like Mexico, for example, 
which has seen a mass exodus of some of their youngest, 
brightest, hardest-working citizens to the United States, never 
to return. President Fox and Foreign Secretary Derbez have 
noted that it is Mexico's goal, just to mention one country, to 
try to develop opportunities for their own people in their own 
country. But what nation's economy could possibly prosper when 
its young, hardest-working, potential entrepreneurs leave 
permanently? So we believe it is in our interest as well as in 
the interest of countries like Mexico to build on the circular 
migration pattern which has historically existed between our 
countries, but to do so within a legal framework.
    Finally, let me just say that our bill does provide for 
obligations of participating countries. This is not a free 
lunch. There are reciprocal obligations, and countries whose 
citizens will qualify under this program must agree, for 
example, to accept the return of people who are deported from 
the country having entered illegally, and our bill does provide 
that our hospital systems and health care providers that 
struggle financially because so few aliens have health 
coverage, that there will be a basic level of health insurance 
provided for participation in the program, which I believe will 
relieve a lot of the pressure that local taxpayers and local 
health care providers feel around the country as well as 
relieve some of the pressure on hospital emergency rooms, which 
sometimes are the only outlet for undocumented immigrants to 
get the care that they need.
    So, in conclusion, let me say how much I appreciate your 
willingness to let us have this hearing today and the support 
that you have lent for this process going forward. I think it 
is important that this Committee lead, and I appreciate your 
willingness to be at the head of that leadership.
    Thank you very much.
    Chairman Specter. Thank you very much, Senator Cornyn. I do 
intend to take the initiative. Again, the absence of the 
administration officials is not going to slow us down. In due 
course, they will have their input, but we are going to proceed 
to move ahead with legislation, as it has been emphasized how 
important it is that it be done as promptly as possible, 
sensibly and done right but done promptly.
    Senator Feingold. Mr. Chairman?
    Chairman Specter. Does anybody have any question or comment 
they would like to direct to the witnesses? Senator Feingold?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Mr. Chairman, if I could, I would just 
like to thank the witnesses and make a brief comment about 
these pieces of legislation.
    I am very pleased that the Committee through recent related 
Subcommittee hearings and this hearing is taking up this 
critical issue. And, Mr. Chairman, I would ask that my full 
statement be included in the record.
    Chairman Specter. Without objection, it will be made a part 
of the record.
    Senator Feingold. I strongly support efforts to curb 
illegal immigration and to prevent terrorists from entering our 
country to do harm. But as we work to protect our Nation from 
future terrorist attacks, I have been and will continue to be 
vigilant to ensure that the Federal Government is successful in 
securing our borders while respecting the need for foreign 
workers, family members, students, business people, visitors, 
refugees, and others who wish to come to our Nation legally.
    Today, millions of undocumented workers live in and 
contribute to our communities and economy in Wisconsin and 
across the country. But while they work hard and contribute in 
many ways, these immigrants often live in fear each and every 
day of deportation and often of exploitation by some 
unscrupulous employers.
    Both for our Nation's security and to be true to basic 
American values of fairness and justice, we should bring these 
workers out of the shadows. We will all be better off if we 
create a realistic immigration system that recognizes that we 
need these workers, that allows them to come to the United 
States legally, and that ensures that the Government knows who 
is entering the country. If we permit these workers to enter 
the country legally, border agents can then focus their efforts 
on terrorists and others who pose a genuine serious threat to 
the Nation.
    We also need to recognize that foreign workers who have 
paid their dues should be treated fairly and deserve the same 
protections as other workers. All workers will be better off if 
guest workers are paid fair wages and are covered by adequate 
workplace protections. This is an issue that affects not only 
these workers but, of course, American employers as well. The 
law should acknowledge the reality that American businesses 
need access to foreign workers for jobs that they sometimes 
cannot fill with American workers. In Wisconsin, I have heard 
from many business owners about the need for Congress to fix 
the broken immigration system. These hard-working Americans 
actually want to play by the rules and cannot fathom why the 
Congress has dragged its feet on this issue for so long.
    So whether we are talking about agriculture or tourism or 
landscaping or any one of a number of industries where foreign 
workers make valuable contributions, businesses will suffer 
more than they already have if we fail to enact meaningful, 
comprehensive, long-term immigration reform.
    It is time for Congress to act, so I would like to take a 
moment to recognize the hard work of my colleagues Senator 
Kennedy and Senator McCain. They have introduced legislation 
that I believe would address many of the issues plaguing the 
current system. The Secure America and Orderly Immigration Act 
would vastly improve border security and would bring meaningful 
reform to our immigration system in a way that actually 
reflects economic reality and the value of keeping families 
together. I commend them for their efforts, and I intend to 
support their bill when it comes before the Committee, which I 
hope will be soon.
    I am aware that there are other proposals on this issue 
that have been introduced in the Senate. I think it is 
important to note, however, that in order to be successful, we 
need an approach that will encourage undocumented workers who 
are already here to come out of the shadows, that will provide 
American employers a stable workforce that ensures that 
immigrant workers are treated fairly and that promotes family 
reunification.
    There is a bipartisan consensus in this country that our 
immigration policies need to be updated. Although we may not 
all agree about how to get there, I think we can all agree that 
this is a serious issue and one that the Committee should 
address. And I commend my colleagues for their efforts, and I 
look forward to working with them and urge the President to 
work with the Congress to enact comprehensive, sensible 
immigration reform.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Feingold.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Senator DeWine, do you have an opening statement?
    Senator DeWine. No.
    Chairman Specter. Senator Brownback, do you care to make 
some comments?

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. I do, but mostly I just have a question, 
if I could. And I have got a written statement I would like to 
submit for the record.
    Chairman Specter. Without objection, it will be made a part 
of the record.
    Senator Brownback. Thank you.
    [The prepared statement of Senator Brownback appears as a 
submission for the record.]
    Senator Brownback. I want to thank you, Chairman, for 
taking up this topic. I think this is really one of the 
pressing top issues that we have in front of the country. I 
would like to see us address it this year and get it through, 
even though I recognize the tentacles associated with dealing 
with immigration are really difficult to do. But it is such a 
pressing issue. It is on the top of most people's minds. As I 
am out, this is one that they are commenting about.
    Senator Kyl, I wanted to ask you on this, because you 
addressed it at the very outset. You said most people are 
cynical about us being able to get this right, that we have not 
been able to, to date yet, or I don't know quite how you put 
that, but they said we are not enforcing the current laws, what 
makes you think you are going to do any more on new laws?
    If you look back and you study this issue--and you have 
been around it a long period of time--do you see a period of 
time when we did get it right, where it was working? Or is the 
current situation just so much different and the scale of it 
that there is really not a comparable period you can look at?
    Senator Kyl. Mr. Chairman, Senator Brownback, I think that 
comparisons with the past probably are not helpful here. The 
one that you hear is the old bracero program. It is so 
different in terms of the times. Agriculture really represents 
a relatively small segment of the illegal employment in the 
United States today. And I think we would not have workers work 
under the same kind of conditions that existed then. So that 
while that program was relatively successful for the time, it 
is probably not apposite to today. And other than that, I don't 
know of a time when the system really has worked very well. A 
combination of circumstances have come together for what some 
might call the perfect storm where you have just enormous 
numbers of illegal immigrants, which now represent a source of 
income for smugglers, which means that the same kind of tactics 
that have attended the drug cartels are now being applied to 
the smuggling of humans, to the detriment primarily of the 
illegal immigrants who are being smuggled across. You heard the 
numbers about their deaths in the desert and so on.
    So while employers are benefiting today and, to some 
extent, consumers from this illegal immigration, I think there 
is no question that we have got to stop an illegal system and 
create a legal framework in which this process of employment 
can occur. And for the last to be enforced I think requires two 
things that we do not have right now. The first is the will and 
resources to enforce the law at the border in the workplace and 
in the interior and secondly is a workable law. If you have a 
law that is easy to use, as Senator Cornyn and I have tried to 
develop so that employers would have really no incentive to 
work outside the law, they get everything they need in terms of 
good employees within the law, and you have a commitment to 
secure the border, which pertains to more than just illegal 
immigration for job purposes--there are a lot of criminals 
coming across, the potential for terrorism, the smuggling of 
contraband and all of the rest. So you have got to have both of 
those at work.
    Whether we have struck the right balance will be for 
everyone to decide, but I think everybody who has offered 
legislation appreciates the fact that there does have to be 
that balance, and that is what we have tried to do.
    Senator Brownback. If I could, Chairman, before my time is 
up, that is what everybody I have talked to--those are the two 
features of it, and it seems like that in your ability to drive 
and push this Committee to get major legislation through, we 
know the outlines, we know where we have got to get to, to try 
to create something. You have got both features of it. You have 
got to get an enforcement feature, and you have got to have a 
reasonable worker program that is fairly easy to access.
    So I would really think with the brilliant minds around and 
in this room that we ought to be able to capture that and put 
something forward that actually does drive that number of 
undocumenteds substantially down, different features in these 
two bills and in other bills, but I do think this is actually a 
solvable issue for us to be able to truly address.
    I thought really we did have some outlines in past programs 
that worked in the sense that the bracero program did make a 
relatively simple system for workers to get into, and the 
number of undocumenteds went down during that period of time.
    Now, I agree that the style of the worker today is not the 
nature of the worker in the 1950s. That is obvious on its face. 
But, still, you did see what happens when you have a reasonable 
working program and people can reasonably get into a documented 
system.
    So I think we can do this, and with your driving energy 
that you have shown to push this Committee to do so much, I 
think maybe you can put a judge, like you did on the asbestos 
bill, and get a special master, if you will, and we could drive 
right on forward on this thing to push it forward.
    Senator Kennedy. Could I just mention a quick response to 
Senator Brownback's other question? I think if you look at it 
historically, you will find out that basically it was sort of 
the militarization of the border in the wake of the 1996 Act. 
If you remember, we passed one bill 93-1 or 93-2, and it went 
into the conference and came out as an amendment on the Budget 
Act and it was an entirely different piece of legislation. And 
it had the aspects of militarization. Instead of people being 
able to go back and forth, they found out once they got here 
they better stay here. And what happened is they started 
getting their families here, and it really began the whole 
opening of the dramatic increase, I think you would find out 
historically, of the illegal kind of pathway. Prior to that 
time, there was much more flexibility there. There were still 
people that were coming in here that were illegal, but people 
were going back and forth.
    I would just mention one other thing I know the Senator is 
interested in, and that is the immigrants in underserved areas, 
and we, as you know, have addressed that issue. We have special 
provisions to have people that can go into underserved areas, a 
lot of the heartlands of this country, too, which I know is an 
area that the Senator was interested in.
    Thank you, Mr. Chairman.
    Senator Cornyn. Mr. Chairman?
    Chairman Specter. Thank you, Senator Kennedy. I think we 
better move ahead to our witnesses because we are going to be 
interrupted by five votes.
    Senator Cornyn, did you seek recognition?
    Senator Cornyn. Just briefly, Mr. Chairman. I wanted to be 
responsive as well to Senator Brownback's inquiry just by this 
brief comment. Senator Kyl and I represent two States that are 
most directly affected by this issue just because of our 
proximity to the border. And in talking to my constituents and 
traveling around the State, the nature of the migration we have 
seen across the border has changed. And we have seen more and 
more people coming through Mexico from other countries and 
being detained in a category that the Department of Homeland 
Security calls OTMs, people from countries other than Mexico.
    And so Mexico has become a transit point for international 
human smuggling, literally from anywhere in the world, which in 
a post-9/11 era causes all of us concern about terrorists 
exploiting those same avenues into the country. So I do believe 
that is much different from any other situation we have 
confronted in the past, and I do agree with Senator Kennedy 
that if we could find a way to restore through a legal process 
the circular migration and allow people through a legal way to 
go back and forth across the border, people who are no threat 
to any of us but who need to come out of the shadows, then I 
think we could correct a lot of the lopsidedness of the current 
system.
    Chairman Specter. Thank you, Senator Cornyn. Thank you, 
Senator Brownback, for your comments. I think this Committee is 
up to the task. We have a good track record so far, and we are 
tackling this issue early. And I think that the objective of 
concluding legislation this year is within our reach.
    We will now turn to our panel of witnesses: Mr. Hal Daub, 
Jr, Ms. Tamar Jacoby, and Mr. Gary Endelman.
    Our first witness, Hal Daub, is president and CEO of the 
American Health Care Association and is testifying on behalf of 
the Essential Worker Immigration Coalition. He has quite an 
extensive background in public service, was the Mayor of Omaha, 
was in the House of Representatives for 8 years. President Bush 
the Elder appointed him to a 4-year term as Chairman of the 
Social Security Advisory Board--that is--current President 
George Bush, the current President; and President George H.W. 
Bush, the Elder, appointed Mr. Daub to the National Advisory 
Commission on Public Service.
    We are going to be looking at a vote here at 10:15, but we 
have a little lead time, so it is my hope that we can pursue 
and complete the opening statements of the three witnesses, and 
then we will schedule a time where the Committee will reconvene 
after the votes.
    Thank you for joining us, Congressman Daub, and we look 
forward to your testimony.

 STATEMENT OF HAL DAUB, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
AMERICAN HEALTH CARE ASSOCIATION (AHCA) AND NATIONAL CENTER FOR 
   ASSISTED LIVING (NCAL), ON BEHALF OF THE ESSENTIAL WORKER 
            IMMIGRATION COALITION, WASHINGTON, D.C.

    Mr. Daub. Thank you very much, Mr. Chairman and members of 
the Committee. It is an honor and a privilege to testify before 
you today on comprehensive immigration reform.
    I am president and CEO not only of the American Health Care 
Association but the National Center for Assisted Living, our 
Nation's largest trade association representing long-term care 
providers. AHCA represents more than 10,000 members, including 
not-for-profit and proprietary skilled nursing facilities, 
assisted living communities, and facilities for those who are 
developmentally disabled. Our facilities employ more than 1.5 
million nursing staff and care for 1.7 million of our Nation's 
frail, elderly, and disabled.
    I am also here today, as the Chairman pointed out, on 
behalf of the Essential Worker Immigration Coalition, a broad-
based coalition of businesses, trade associations, and others 
who are concerned with the shortage of both skilled labor and 
lesser skilled or ``essential workers.'' This organization 
supports policies that facilitate the employment of essential 
workers by U.S. companies and organizations and reform of U.S. 
immigration policy to facilitate a sustainable workforce for 
the American economy while still ensuring our National security 
and our prosperity.
    AHCA and EWIC thank you, Senator Specter, for bringing the 
immigration reform debate to the forefront during what is 
obviously a very busy time for this Committee. And we thank 
Senators McCain, Kyl, Cornyn, and Kennedy for their commitment 
to resolving this onerous problem in a straightforward and 
bipartisan fashion. We also want to recognize Senators Kay 
Bailey Hutchison and Dianne Feinstein for their efforts to 
authorize 50,000 unused employment-based visas for foreign 
nurses.
    All of us agree America is a stronger and better Nation 
because of the hard work, faith, and entrepreneurial spirit of 
our immigrant ancestors and those who are arriving on our 
shores daily.
    Reform must begin by recognizing that many jobs being 
created today are jobs that American citizens are not and 
indeed no one is filling. Our laws, therefore, should be 
organized to allow willing workers to enter the country and to 
fill this void.
    The Bureau of Labor Statistics projects that 98 percent of 
employment growth from 2002 until 2012 will be in the service 
industries, with 80 percent in education and health services, 
professional and business services, State and local 
governments, leisure and hospitality services, and the retail 
trade. They project employment in all occupations to increase 
from 144 million to 165 million. Changing demographics and 
retirement and turnover will leave 56 million job openings 
during that decade. That is an average of 2.6 jobs for each net 
additional job.
    The shortage of caregivers for our rapidly aging society is 
affecting America's health care system. In long-term care, Mr. 
Chairman, we are all ready, willing, and able to offer tens of 
thousands of good-paying jobs that, if filled, will help boost 
the quality of seniors' care in nursing facilities and other 
long-term care across America.
    A recent HHS and Department of Labor study estimates that 
the U.S. will need 5.7 to 6.5 million nurses, nurse's aides, 
home health, and personal care workers by the year 2050 to care 
for the 27 million Americans who will then require long-term 
care--a 100-percent increase from the base year of 2000.
    Our own AHCA workforce reports 100,000 nursing vacancies 
right now and about 52,000 vacancies right now for certified 
nursing assistants. Those are immediate needs that belie our 
ability to deliver the quality care that America expects.
    Current temporary and permanent visa programs are 
insufficient to accommodate our Nation's needs for these 
essential workers.
    Comprehensive immigration reform should be guided by three 
basic principles.
    First, America must retain absolute control of its borders 
and know who lives within them. On this point, there is no 
debate.
    Second, new immigration laws should serve the needs of the 
U.S. economy. If an American employer is offering a job that 
American citizens are not willing or able to take, we ought to 
welcome essential immigrant workers willing to fill that job, 
especially when filling that job can improve the health and 
well-being of our most vulnerable citizens.
    And, third, the undocumented worker who pays taxes will 
help to ameliorate our Nation's workforce shortages and should 
be offered an opportunity to earn their legal status. We do not 
want to reward illegal activity or disadvantage those who came 
here lawfully. But we must acknowledge the contributions of our 
Nation's undocumented workers.
    The path to permanent status, and eventually U.S. 
citizenship, is especially important to our Nation's long-term 
care profession. With a turnover rate for CNAs and personal 
care workers in some of our skilled nursing facilities and 
assisted living residences close to 100 percent, we find it 
illogical that an administrator must send his or her most 
senior qualified aide home after 2 or 3 years simply because 
they were born in a foreign country.
    That key caregiver should be offered the opportunity to 
extend his or her stay and continue to contribute both to the 
U.S. economy and to the care of our frail, elderly, and 
disabled.
    I have a great deal more I would like to say. I want to 
give deference to my other colleagues on this panel, and in 
recognition of the shortage of time before the votes, Mr. 
Chairman, if my remaining statement could be made a part of the 
record, and then perhaps in questions and answers later on I 
can make some other point.
    Chairman Specter. Congressman Daub, your full statement 
will be made a part of the record, and there will be an 
opportunity to amplify during the Q&A session.
    [The prepared statement of Mr. Daub appears as a submission 
for the record.]
    Chairman Specter. We now turn to Ms. Tamar Jacoby, senior 
fellow at the Manhattan Institute, written extensively on 
immigration. Her most recent book in February of 2004 was 
entitled ``Reinventing the Melting Pot: The New Immigrants and 
What It Means to Be American.'' She has an extensive record, 
working for the New York Times, the Wall Street Journal, the 
Washington Post, Newsweek, New York Review of Books. A graduate 
of Yale University, taught at Yale, Cooper Union, and the New 
School University.
    Thank you for joining us today, Ms. Jacoby, and we look 
forward to your testimony.

STATEMENT OF TAMAR JACOBY, SENIOR FELLOW, MANHATTAN INSTITUTE, 
                       NEW YORK, NEW YORK

    Ms. Jacoby. Thank you, Mr. Chairman, for the opportunity to 
address this Committee.
    I am here today as a conservative to make the conservative 
case for immigration reform. Americans are frustrated--we all 
know that--by the illegality, the security risks, the 
disruptions in their communities, and we in Washington have to 
address this. But that need not mean closing our borders. We 
can have the immigrants we need to keep the economy growing and 
the rule of law, too, if we make the right adjustments.
    I think policymakers as diverse as President Bush and 
Senator Kennedy understand any workable remedy has to include 
three elements, the three pillars of reform. Pillar number one, 
we must create new legal channels so that the foreign workers 
we need to keep our country growing can enter the country in an 
orderly, legal manner. All of today's programs do that with a 
temporary worker program, and the most important test of those 
programs is that they be realistic--first and foremost, 
realistic in size. If the channels are too small, if they do 
not accommodate the workers we need, we are still going to face 
the lawlessness that we face today because there will still be 
a spillover, the workers we need exceeding the channels.
    But that is not the end of the realism that is required 
because any new visa program must also be based on a realistic 
understanding of the people coming to the U.S. to work. Some 
come for a short stint and then go home, and then later perhaps 
come back again for another stint. But after a while, the most 
able and successful start to put down roots, and they did so 
even before we started hardening the border. This is inevitable 
and it is not a bad thing. By definition, these are the 
foreigners most likely to do well here in the United States. 
They have put down roots instead of going home precisely 
because they are succeeding here and fitting in as Americans. 
And the fact that they want to stay also makes them more 
valuable workers. After all, few American employers want to 
replace their workforce every year or two.
    So the second criteria for any new legal channels or any 
temporary worker program is that the program must allow for 
choice. Yes, let's encourage many of the immigrants who come 
here to work to go home when their stint is done. But I believe 
we must also allow those who wish to stay, to stay and settle. 
We should encourage them to become citizens. We should have 
incentives for return, but also incentives for citizenship.
    Pillar number two, the second sine qua non, every bit as 
important as legal channels, is a raft of robust enforcement 
measures so that the immigrant workers use these new legal 
channels and no others. These two elements go together, as many 
have said here today. They are two pillars of a single house, 
and one without the other will solve nothing. We must replace 
the old nudge, nudge, wink, wink system, channels that are too 
small and laws we do not enforce, with a new bargain: realistic 
laws, realistic quotas, enforced to the letter.
    The key to the successful enforcement is indeed a layered 
approach on the border and the interior through agreements with 
sending countries and more credible punishments. Most 
important, the crown jewel of any enforcement package, we must 
remove the incentive for foreign workers to enter the country 
illegally by making it impossible to work once they get here. 
And the key to that is giving employers the tools they need to 
determine who is authorized to work and who is not--an 
electronic employment verification system modeled on credit 
card verification, combined with tough new sanctions for 
businesses that violate the law.
    Pillar number three--and, of course, this is the hardest--
we must find an answer for the estimated 11 million illegal 
immigrants already living in the country. And the point here 
from the conservative point of view, we cannot create a sound 
new system, a sound new legal system on top of an illegal 
foundation. We cannot deliver the control and legality we need 
unless we eliminate the underground economy, unless we figure 
out a way for these people to come forward. For our sake, in 
order to reassert the rule of law and for reasons of national 
security, we must come up with an answer to this problem.
    Yes, it is a difficult moral issue, and it is easy to say 
just send them home. But the truth is Americans are not going 
to stand by as we deport them, and after many years in this 
country, many of them have put down roots, buying homes and 
businesses, giving birth to children who are U.S. citizens. And 
the punitive demands that they go home, unrealistic demands, 
will only drive them further underground.
    So the bottom line and the central unappreciated point 
here, I think, is that most of these people are here to stay, 
and it is in our interest as much as theirs to find a way for 
them to do so legally. There is simply no realistic alternative 
to finding a way for them to stay. The only question before us 
is how to structure that transition.
    So, in closing, I would like to look very briefly at the 
two proposals on the table. They are a wealth of good ideas, 
and the question is how do we combine the best of both in one 
workable package. If the criteria for a temporary worker 
program is that it has to be big enough and flexible enough to 
accommodate a variety of immigrants who are going to make 
different choices, I believe that of the two proposals on the 
table, only the McCain-Kennedy bill meets this second 
requirement, that it is flexible enough to allow workers to 
make a choice at the end of their work stint.
    When it comes to enforcement, I believe that the Cornyn-Kyl 
legislation is the stronger of the two--more comprehensive, 
more muscular, more reassuring to voters who feel that they 
have been promised enforcement before, only to see it fail for 
lack of resources. Some elements of the Cornyn-Kyl bill's 
enforcement package may need to be tempered, but I think 
policymakers could do worse than to start by combining the 
McCain-Kennedy temporary worker program with the enforcement 
title of the Cornyn-Kyl bill.
    The most difficult question before us, of course, is how to 
structure the solution for the 11 million. Both pairs of 
reformers have plainly anguished over the issue. Both have 
spoken encouragingly about the need for a program that will 
entice people to come forward. But of the bills before us, I 
believe that only the McCain-Kennedy approach comes close to 
being practical. It is not the perfect solution, and even its 
fines and conditions and 6-year waiting period may strike some 
Americans as too generous, and perhaps there is a better answer 
out there waiting in the wings that we have not talked about 
yet. Still, sometimes the perfect is the enemy of the good, and 
on the matter of the 11 million, I believe the McCain-Kennedy 
proposal is the best proposal on the table so far.
    In closing, I will step back from these particulars. 
Critical as they are, difficult as they are, if I make any 
impression today, it would be to urge Congress to go forward on 
this. We must fix our system, not for the immigrants' sake but 
for ours, our economic interest, our security interest, and our 
commitment to the rule of law demands it. We must created an 
orderly, legal way for the workers we need to enter the country 
so that we can remain a nation of immigrants and a nation of 
laws.
    [The prepared statement of Ms. Jacoby appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Ms. Jacoby.
    Our final witness on this panel is Mr. Gary Endelman, in-
house immigration counsel at BP America, although he is not 
testifying on behalf of BP. Written extensively on the 
immigration subject, including Interpreter Releases, Bender's 
Immigration Bulletin, Immigration Briefing, and Immigration 
Business and News Comments. An outstanding academic record, Phi 
Beta Kappa from the University of Virginia, B.A., M.A., and 
Ph.D. from the University of Delaware, and J.D., summa cum 
laude, from the University of Houston.
    That is quite a resume, Mr. Endelman. Thank you for joining 
us, and the floor is yours.

      STATEMENT OF GARY ENDELMAN, AUTHOR AND IMMIGRATION 
                  PRACTITIONER, HOUSTON, TEXAS

    Mr. Endelman. Thank you, Mr. Chairman, for the privilege of 
addressing this Committee. My purpose here today is to suggest 
ways in which our legal immigration system can be changed to 
strengthen the Nation.
    First, let me sketch out some broad themes. Number one, 
immigration is necessary for the United States to compete in a 
global economy and maintain the scientific and technological 
supremacy on which our economy is based. To do that, I think, 
as Senator Kennedy rightly noted, we need both tougher 
enforcement and more immigration. The purpose of immigration, 
in my view, should be to strengthen the Nation, and not to help 
the immigrant. Immigration should be enlightened national self-
interest. It should not be social outreach, it should not be 
social work.
    I think we have to end chain migration. The vast majority 
of visas, in my view, should be employment based. The reality 
is that, for most family categories, family migration has 
become an unregulated jobs program. It is no longer possible, 
if it ever was, to protect U.S. workers through increasing 
restrictions on employment when the reality is that most 
immigrants who work in the United States come under the family 
preference without any labor controls.
    I think we have to deregulate our immigration system. We 
have to allow market forces to guide its principles and its 
operation. Mass migration and micromanagement, which is what we 
have today, are not compatible, in my view. I think we have to 
give aliens control over their own visas, we have to give them 
the occupational mobility that will best protect U.S. workers. 
I think we have to have an active, not a passive, approach to 
immigration policy. We have to think strategically. We have to 
think how immigration can help our economy become more 
competitive. It should be harder, in my view, to come to the 
United States, but much easier to stay. And I think we have to 
recognize that all visas are not created equal. Our economy 
does not need them equally, and the terms and conditions of 
their issuance should not be equal.
    Now, Mr. Chairman, for a few specific proposals in the time 
I have left. First of all, I think it is unconscionable that 
the families of permanent residents are divided for years on 
end. In my view, we need to abolish all limits on family second 
preference migration and I think we should abolish all other 
family categories, with the numbers shifted over to the 
employment side.
    Second, I would abolish the diversity visa lottery. It has 
no economic justification. In my view, once again, I would 
shift these numbers over to the employment side of the ledger 
and I would propose that the numbers be given to the States to 
create a system of immigration visa credits that can be traded 
or purchased. No one knows what America needs better than the 
people who live in our communities.
    Third, I would replace the current system of employer 
sponsorship with a point system.
    Fourth, I would allocate immigrant visas not by country of 
birth but by occupation, which can be revised periodically. I 
would create a list of occupations most in need by the American 
economy and I would make that the hallmark of visa issuance. 
Once again, it can be revised periodically, and this can be 
applied both to permanent as well as temporary visas. I would 
allow visas to rise or fall in response to changes in demand 
and economic need. I would suggest that Congress create a 3-
year visa projection plan, not an annual one, followed by a 
market-based auction subject to prevailing wage oversight and 
random audits. This would allow more visas to be released in 
times of sudden or unexpected need.
    With specific reference to the most commonly used temporary 
work visa, the H-1B, I would remove all limits on the H-1B, but 
I would make it valid only for 3 years, with no extensions. I 
would allow the alien workers themselves to petition, freeing 
them from the need for employer sponsorship, and I would have 
as my guiding theme that we need more permanent visas and less 
temporary ones.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Endelman appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Endelman.
    The vote has been moved back to 10:45, which gives us a 
little more room. It may be moved back again, so we will just 
take whatever time we can now.
    We now move to the period on the hearing where there are 5-
minute rounds for each of the members.
    Beginning with you, Mr. Daub, if there were a requirement 
that the illegal immigrant return to his/her home country for a 
period perhaps as long as a year, how undesirably, if at all, 
would that impact on American business?
    Mr. Daub. In the long-term care world, we employ about 3.3 
million people total, so the employment base post-acute, post-
hospital, is 3.3 million. That is about almost 3 percent of 
America's workforce. And we have critical labor shortage. This 
is not about money or wages; this is about very serious care 
delivery in America. And to give a broader perspective of our 
particular interest in this subject, we are interested in 
people who already speak English, who already have training as 
a more professional contributor to care delivery and to our 
economy. And so if they had to be sent back for a year or two 
or three, that lack of stability in the workforce, as well as 
the shortages in the workforce and the continuing training that 
goes on all the time inside a facility, would be very 
disruptive to the delivery of quality care. It would actually, 
I think, cause a deterioration in the quality of that care.
    Chairman Specter. Ms. Jacoby, you have written about 
getting beyond the A word--the ``asylum'' word, if anybody is 
watching on C-SPAN.
    Ms. Jacoby. ``Amnesty.''
    Chairman Specter. Do you suggest a compromise approach akin 
to probation? How would you handle that, and would you include 
in your answer what Representative Daub has had to say about 
his view on the undesirability of sending people back because 
of the disruptive impact on business?
    Ms. Jacoby. Well, I think you put it very well in the 
opening, Senator. The consensus is amnesty is a non-starter. We 
all understand that we do not want to reward people who have 
broken the law and we do not want to encourage future law-
breaking. But the reality is that these people are here, they 
are part of our economy, many of them have deep roots. They are 
not just people--the younger ones are people who have come and 
could potentially be encouraged to go home, the 18-year-olds, 
the 21-year-olds. But many of them have lived here 15, 20 
years, have, as I say, U.S.-born citizen children. They are not 
going to go home.
    So the question is how to structure a transition that can 
meet the American people's concern that we not have it be an 
amnesty and we not reward law-breakers, and that people go 
through normal channels and yet take care of these people. 
There is no question that it is a moral dilemma. But I do 
believe the McCain-Kennedy approach offers a realistic, 
practical solution.
    You can say that there are two criteria, really, for the 
solution. One is that it can work, meaning that people will 
come forward and take advantage of it; the other is that it 
will pass, meaning that it will not strike the public as an 
amnesty. And the question is threading that needle, walking 
that fine line. I think, of the proposals on the table, McCain-
Kennedy does thread that needle, or holds the promise of 
threading that needle. We do not know if it can pass, but it 
holds the promise of threading that needle because it does 
require people to make good on their past--pay a fine, pay 
their--
    Chairman Specter. Mr. Endelman--I want to move on, Ms. 
Jacoby. I want to give Mr. Endelman a chance to respond to a 
question during my 5 minutes.
    You have written that immigration should not be a noble 
exercise in international social work--and have testified here 
today--but a clear-eyed expression of enlightened national 
self-interest. Permit me to engage you in just a little 
dialogue on that subject because I disagree with you. Although 
it may be possible to promote our views of enlightened self-
interest and still be a beacon of hope to people around the 
world, but around the world there is a dream of coming to the 
United States. And I think that dream is as real today as it 
was a century ago when my father walked across Europe, barely a 
ruble in his pocket, to come to the United States, steerage, 
bottom of the boat, proud to be in the American army and raise 
a family. And my mother came with her family when she was 6 
years old, with her younger brother. And they were very 
productive citizens. I do not think anybody knew at the outset 
how productive they would be or their progeny would be.
    But is there not an element that ought to be considered as 
the United States being a beacon of hope to attract people and 
to make them work hard and to want to come here? What do you 
think?
    Mr. Endelman. I certainly agree with that, Senator, and I 
think we do have common ground. I think we must retain and 
nurture our core commitment to family migration, to asylum, to 
a generous and human refugee policy. We cannot have an 
enlightened immigration policy without a compassionate country. 
But at the same time, I think we have to begin to think of 
immigration as an asset to be maximized, not as a problem to be 
controlled. And I think the focus should be on what is good for 
the Nation, not what is good for the immigrant. And that should 
be, in my view, the theme for more employment immigration, 
which I think should predominate.
    But there is no question that we must have a balanced, 
humane, and generous approach to all aspects of immigration.
    Chairman Specter. Thank you, Mr. Endelman.
    Senator Kennedy?
    Senator Kennedy. Thank you very much. I thank all of our 
panelists. We are looking at something that is going to be 
workable. I think all of you have emphasized that. And Ms. 
Jacoby, you talked about the numbers that come in here. We have 
set the figure at about 400,000, with some flexibility, because 
that is the best estimate that we have been able to have. Along 
with that, we have the enforcement provisions, which we welcome 
the opportunity to review so that we can get more effect. But 
part of it is if you have this system set up, then those 
employers that are here, if the individual that comes and 
knocks on their door has not got that card, they have a 
responsibility now to check, not just to give a waiver and say 
fine, you can come here and work, but to check with the 
Department of Homeland Security. We have the real opportunity 
for enforcement here at home.
    And I would be interested if you would comment on that, 
because we have tried to take the different elements of it. 
One, the realistic aspects of it in terms of the pressure to 
come here, so you have legality on that; secondly, you have 
legality, hopefully, on the borders with the kinds of 
enforcement provisions. But then you have legality in terms of 
the enforcement here as well, and try and take the totality. I 
think we would welcome the fact. Others have talked about what 
is going to be necessary with Mexico and the other countries, 
all of which is important.
    But could you comment just on that, what a difference that 
that could make here at home in terms of ensuring that we were 
going to have a system that was going to be--employers would 
have some responsibility and, hopefully, have a system that, 
really, here at home would work for the first time?
    Ms. Jacoby. I think you have zeroed in on the key element 
of an enforcement regime. Because as is, most employers in the 
United States would rather be on the right side of the law. 
Sure, there are some bottom fishers, but big companies, 
companies with consumers, companies that want a stable 
workforce would rather be on the right side of the law. The 
problem is now they have really no tools to do that. My analogy 
of what the hiring process is like now, it is as if you went 
into a store to buy a shirt and you showed them your 
Mastercard, and the merchant had to eyeball the Mastercard and 
say, well, it looks good to me. And then he was responsible if 
it turned out that it was not. That is the way it is now. 
Employers have to eyeball documents and they are responsible if 
they made a mistake.
    Let's give them a system that they can use. In effect it 
has to be a mandatory system so that it is voluntary 
compliance, so that people have a way to comply with the law if 
they are indeed willing, as I believe most employers will. And 
it is about, I think, a simple swipe system. It is about cards 
and a swipe system that will become part of the hiring process. 
And it need not be Draconian or Orwellian or a national I.D. We 
can structure it in a different way. And it is really just 
about the expense and the political will to make the databases 
work at the Social Security Administration and the DHS. And, 
you know, it will take some doing, but certainly not beyond us.
    Senator Kennedy. Well, I think that is particularly 
important that we have each aspect of it. And that is what we 
have tried to do on that, to be both enforceable and effective.
    Let me come to--we have restrained from commenting 
adversely about each other's different proposals here. I am 
interested in one aspect and I would be interested in Mr. 
Daub's reaction to it from a business point of view, the sense 
under one of the proposals that you return to your country--it 
does not indicate the amount of time, I think I am correct, in 
the Kyl-Cornyn--and then you can come here, but you can come 
here for 2 years; you go back, you come here for two more 
years, and that is it. And your family can visit you for 30 
days during that period, but limited to 30 days.
    How does this sort of fit in with what, in this case, the 
effective business demand would be, I mean in terms of 
employment, both in terms of--I am interested in the 
individual, what kind of progress they are going to be able to 
make if they know at the end of that they are going to just 
have to return. When they sign up for that proposal, they know 
they have to leave the country. They can come back here on two 
occasions, but then they are out. And what does that mean both 
to the employer and, do you think, in terms of the mind of the 
employee?
    Mr. Daub. I really, Senator, do appreciate Senator Kyl and 
Senator Cornyn's bill in many respects and I am glad they are 
in the debate, because I think they are headed down a common 
path with solving the problem. About the only troubling feature 
in it, sincerely, is the disruptive circumstance in our 
particular world of a more talented, more highly trained, more 
educated kind of workforce where that CNA, less skilled to 
start, may have come here in an undocumented status, but by the 
time they are in their second or third year will start that 
career ladder and move to be a certified nurse assistant, then 
to an LPN, then maybe even the potential to go on to nursing 
school. So it is a disruptive circumstance.
    I have practiced immigration law, Senator, and I was on the 
American Immigration Law Reform Institute's board of directors 
years ago and active in the Simpson-Mazzoli debate when 
privileged to be a member, and I went through the SAW program 
and all these other kinds of efforts. And this is a time when 
we can solve a workforce issue and a family unification issue. 
My colleague, Mr. Endelman, talked about the legal immigration, 
and then by consanguineous affinity, by brother-sister-mother-
father-and offspring thereof, we have a chain migration of 1 
times 7 on the legal side. And it is disproportionate to what 
is in the workforce.
    So from a business point of view, one of the nuts to crack 
in the Committee, Mr. Chairman, is this disruptive nature of 
how to solve the problem. And I would think in this case that 
is the one--I like their border enforcement and the resources, 
the health care provisions in their bill. There ought to be a 
way here to solve that problem of the disruptive nature in the 
workforce that is a piece of the problem, honestly.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Kennedy.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    Chairman Specter. We may have an opportunity to conclude 
the hearing if one round will be sufficient. Because the vote 
has not yet started, so we have a period of grace here.
    Senator Cornyn. Great. Thank you very much.
    Let me ask Mr. Daub and Ms. Jacoby, I understand your 
concerns about disruption, particularly of the 10 or however 
many million who have been here, perhaps for a long time. 
Although I note that the Pew Hispanic Survey says that only 
about one-third of the undocumented population has been here 
for more than 10 years. But the problem is, we do not really 
know. But we--I think it is probably reasonable to suspect that 
they meet all sorts of different descriptions in terms of their 
family circumstances, how long they have been here, and the 
like.
    But let me ask you, first, Ms. Jacoby, I think you have 
expressed--I know you have expressed concerns about if there is 
any requirement that people who are undocumented are required 
to return, even if it is over a period of 5 years on a 
temporary basis, to their home, that you are skeptical whether 
people would participate. But let me ask you, if workers knew 
before they left that they would be eligible to return, would 
that address some of the concerns, perhaps their concern that 
they would be trapped outside of the country? But if they knew 
that they were going to be able to come back when they left, 
would that help some of your concerns?
    Ms. Jacoby. I think it might. I think there are a number of 
conditions, if one was going to ask people to return in order 
to be processed and come back. One would certainly want to be 
able to start the processing here so that they would go back to 
finish, perhaps, the last stages of the processing at their 
home country.
    Senator Cornyn. Let me ask you some more about that, 
though, since I think you answered that question. If the 
processing times of Government agencies were such that the trip 
abroad did not disrupt employment, do you think that would be--
    Ms. Jacoby. I think that would certainly be better for them 
and for the employers, needless to say.
    Senator Cornyn. And finally, if workers who are eligible 
for a green card knew that they would not have to wait for a 
visa, that there would not be a backlog and that they could 
return on a green card instead of on a short-term visa, would 
that likely increase the participation?
    Ms. Jacoby. I think, obviously, too. I mean, the key here, 
the number of green cards, I think, is what you are getting at. 
If there either enough exemptions in green cards so people can 
work it that way, or the number of green cards increases enough 
so that people, if they leave, can leave with confidence that 
they can come back legally and with the kind of visa that they 
are seeking, certainly that would increase participation.
    Senator Cornyn. I appreciate your answers and your 
testimony, Mr. Daub and Mr. Endelman, but I would submit that 
if the concerns that people have about the Cornyn-Kyl bill with 
regard to the population that is here, the 10 million or so, is 
about disruption and about stranding people outside of the 
country who are qualified to come back and work within a legal 
framework, that is clearly something that we intend to address 
with the Committee and with the Congress to try to avoid. It is 
certainly not our goal to create a disruption of the workforce 
or family life or to separate families, but rather, not to 
create a new path for people who have come here outside of our 
laws, which by any definition, I think, would be problematic to 
a lot of people; but rather, to create a way for them not to 
break in line, but rather to come back in through legal 
processes.
    I realize that part of our problem with our immigration 
system in this country is that we make legal immigration hard 
by unrealistic caps, by excessive processing times because of 
administrative backlogs and the like. And my goal, and I think 
it is fair to say, Senator Kyl's goal, since we have been 
working most closely together, I will venture that for him as 
well, but I think our goal should be to try to find a way to 
provide these people who currently operate in the shadows, who 
are subject to exploitation, to are left to die by human 
smugglers trying to come in illegally, people who cannot go to 
law enforcement because they are afraid of being deported, we 
ought to find a way for them to re-enter through a legal system 
that does not provide them any preference, but does provide 
them an opportunity. And certainly I am committed to that goal 
and look forward to working together with my colleagues in 
order to accomplish it.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Cornyn.
    Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman. A 
couple of quick questions, if I could.
    We talked quite a bit, Ms. Jacoby, about the Social 
Security issue and the Kyl-Cornyn really attempts to address 
that. Does anybody on the panel or do you know the amount of 
money that is currently in Social Security that has been paid 
by undocumented workers, and what happens to that money?
    Mr. Daub. Yes.
    Senator Brownback. What is that?
    Mr. Daub. I am privileged to serve as a member of the 
Social Security Advisory Board and you or your staff can go to 
ssab.gov. That information is there. Basically, I think there 
is an unclaimed property account, as it is called, within the 
Social Security budget line item. It is about $527 billion, I 
believe. It is a big, big number. Now, you have to decide how 
valuable you think that number is. But if I were an employer in 
Idaho and I had 200 seasonal workers and the Social Security 
numbers were entered, 000-00-0000, the employer is legal, he 
has withheld against 200 perhaps nondocumented workers with 
illegal cards. The money and the match is deposited, but of 
course, obviously, never claimed by that individual because 
they had a false card. It is a huge amount of money.
    Senator Brownback. And it just sits there?
    Mr. Daub. It just sits there and accumulates. And it is 
cleaned out periodically. There are about 57 different computer 
programs that try to scrub it and match and match and match. 
Ultimately, if someone becomes legal, there is a process they 
can go through to prove those contributions to their account, 
but it is very difficult to do.
    Senator Brownback. So there is a trust fund?
    [Laughter.]
    Mr. Daub. Actually, Senator Byrd could verify that the 
certificates of indebtedness are held in the Bureau of Public 
Debt in West Virginia.
    Senator Brownback. Mr. Endelman, I want to ask you before 
we have to go vote, we have in the McCain-Kennedy bill a 
proposal that allows counties that have lost population to 
access a certain quantity of visas. Is that along the lines of 
what you are talking about? You have talked about States, but 
not about local units of Government being able to access visas.
    Mr. Endelman. Yes, Senator. I would propose to abolish the 
diversity visa lottery and give the numbers to States, 
localities to allocate as they see fit. There are many parts of 
the country where they are having great difficulty. There is 
depopulation. They have difficulty attracting workers to 
hospitals, to industries, as you know in your State, other 
States. I see no reason why immigration cannot be a tool to do 
that. It can be just as powerful a magnet as interest rates, 
tax abatements, things like that. That is exactly what I mean 
when I say we should use immigration in a strategic sense. We 
have to use immigration, we can use immigration to create the 
kind of society we want and solve the problems we have. I think 
we can and should do that.
    Senator Brownback. I would note, in the chairman's home 
State that he has a fifth of the counties would be medically 
underserved if it were not for foreign-born doctors.
    Mr. Daub. Exactly. That is the kind of thing that can 
happen if we have an active strategic approach, which I think 
we can and should have.
    Senator Brownback. Thank you, Chairman.
    Chairman Specter. Just one question, Senator Brownback, 
when you talk about my home State, are you referring to Kansas?
    [Laughter.]
    Senator Brownback. I should say your native State. The 
State that sponsored and helped your parents so much and where 
they first--I guess they first came and resided, or at least 
they spent much of their adult time period there.
    Chairman Specter. They spent a lot of time in Wichita and 
Russell.
    Mr. Daub. Mr. Chairman, may I make the membership of EWIC a 
matter of record, the 35 organizations that support--
    Chairman Specter. They will be made a part of the record.
    [The information appears as a submission for the record.]
    Chairman Specter. At Senator Kennedy's request, we will 
include a group of editorials and also a statement by Senator 
Leahy and a group of documents, all to be made a part of the 
record. And a statement, without objection, by Senator Grassley 
will be made a part of the record.
    We thank you, Congressman Daub, Ms. Jacoby, Mr. Endelman, 
for coming in. Your testimony has been very helpful. The 
Committee will be pursuing this subject. We are looking forward 
to inputs from the Administration, and it is our hope, perhaps 
even expectation, that we can have a bill this year.
    That concludes the hearing. Thank you all.
    [Whereupon, at 10:56 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 46017.001

[GRAPHIC] [TIFF OMITTED] 46017.002

[GRAPHIC] [TIFF OMITTED] 46017.003

[GRAPHIC] [TIFF OMITTED] 46017.004

[GRAPHIC] [TIFF OMITTED] 46017.005

[GRAPHIC] [TIFF OMITTED] 46017.006

[GRAPHIC] [TIFF OMITTED] 46017.007

[GRAPHIC] [TIFF OMITTED] 46017.008

[GRAPHIC] [TIFF OMITTED] 46017.009

[GRAPHIC] [TIFF OMITTED] 46017.010

[GRAPHIC] [TIFF OMITTED] 46017.011

[GRAPHIC] [TIFF OMITTED] 46017.012

[GRAPHIC] [TIFF OMITTED] 46017.013

[GRAPHIC] [TIFF OMITTED] 46017.014

[GRAPHIC] [TIFF OMITTED] 46017.015

[GRAPHIC] [TIFF OMITTED] 46017.016

[GRAPHIC] [TIFF OMITTED] 46017.017

[GRAPHIC] [TIFF OMITTED] 46017.018

[GRAPHIC] [TIFF OMITTED] 46017.019

[GRAPHIC] [TIFF OMITTED] 46017.020

[GRAPHIC] [TIFF OMITTED] 46017.021

[GRAPHIC] [TIFF OMITTED] 46017.022

[GRAPHIC] [TIFF OMITTED] 46017.023

[GRAPHIC] [TIFF OMITTED] 46017.024

[GRAPHIC] [TIFF OMITTED] 46017.025

[GRAPHIC] [TIFF OMITTED] 46017.026

[GRAPHIC] [TIFF OMITTED] 46017.027

[GRAPHIC] [TIFF OMITTED] 46017.028

[GRAPHIC] [TIFF OMITTED] 46017.029

[GRAPHIC] [TIFF OMITTED] 46017.030

[GRAPHIC] [TIFF OMITTED] 46017.031

[GRAPHIC] [TIFF OMITTED] 46017.032

[GRAPHIC] [TIFF OMITTED] 46017.033

[GRAPHIC] [TIFF OMITTED] 46017.034

[GRAPHIC] [TIFF OMITTED] 46017.035

[GRAPHIC] [TIFF OMITTED] 46017.036

[GRAPHIC] [TIFF OMITTED] 46017.037

[GRAPHIC] [TIFF OMITTED] 46017.038

[GRAPHIC] [TIFF OMITTED] 46017.039

[GRAPHIC] [TIFF OMITTED] 46017.040

[GRAPHIC] [TIFF OMITTED] 46017.041

[GRAPHIC] [TIFF OMITTED] 46017.042

[GRAPHIC] [TIFF OMITTED] 46017.043

[GRAPHIC] [TIFF OMITTED] 46017.044

[GRAPHIC] [TIFF OMITTED] 46017.045

[GRAPHIC] [TIFF OMITTED] 46017.046

[GRAPHIC] [TIFF OMITTED] 46017.047

[GRAPHIC] [TIFF OMITTED] 46017.048

[GRAPHIC] [TIFF OMITTED] 46017.049

[GRAPHIC] [TIFF OMITTED] 46017.050

[GRAPHIC] [TIFF OMITTED] 46017.051

[GRAPHIC] [TIFF OMITTED] 46017.052

[GRAPHIC] [TIFF OMITTED] 46017.053

[GRAPHIC] [TIFF OMITTED] 46017.054

[GRAPHIC] [TIFF OMITTED] 46017.055

[GRAPHIC] [TIFF OMITTED] 46017.056

[GRAPHIC] [TIFF OMITTED] 46017.057

[GRAPHIC] [TIFF OMITTED] 46017.058

[GRAPHIC] [TIFF OMITTED] 46017.059

[GRAPHIC] [TIFF OMITTED] 46017.060

[GRAPHIC] [TIFF OMITTED] 46017.061

[GRAPHIC] [TIFF OMITTED] 46017.062

[GRAPHIC] [TIFF OMITTED] 46017.063

[GRAPHIC] [TIFF OMITTED] 46017.064

[GRAPHIC] [TIFF OMITTED] 46017.065

[GRAPHIC] [TIFF OMITTED] 46017.066

[GRAPHIC] [TIFF OMITTED] 46017.067

[GRAPHIC] [TIFF OMITTED] 46017.068

[GRAPHIC] [TIFF OMITTED] 46017.069

[GRAPHIC] [TIFF OMITTED] 46017.070

[GRAPHIC] [TIFF OMITTED] 46017.071

[GRAPHIC] [TIFF OMITTED] 46017.072

[GRAPHIC] [TIFF OMITTED] 46017.073

[GRAPHIC] [TIFF OMITTED] 46017.074

[GRAPHIC] [TIFF OMITTED] 46017.075

[GRAPHIC] [TIFF OMITTED] 46017.076

[GRAPHIC] [TIFF OMITTED] 46017.077

[GRAPHIC] [TIFF OMITTED] 46017.078

[GRAPHIC] [TIFF OMITTED] 46017.079

[GRAPHIC] [TIFF OMITTED] 46017.080

[GRAPHIC] [TIFF OMITTED] 46017.081

[GRAPHIC] [TIFF OMITTED] 46017.082

[GRAPHIC] [TIFF OMITTED] 46017.083

[GRAPHIC] [TIFF OMITTED] 46017.084

[GRAPHIC] [TIFF OMITTED] 46017.085

[GRAPHIC] [TIFF OMITTED] 46017.086

[GRAPHIC] [TIFF OMITTED] 46017.087

[GRAPHIC] [TIFF OMITTED] 46017.088

[GRAPHIC] [TIFF OMITTED] 46017.089

[GRAPHIC] [TIFF OMITTED] 46017.090

[GRAPHIC] [TIFF OMITTED] 46017.091

[GRAPHIC] [TIFF OMITTED] 46017.092

[GRAPHIC] [TIFF OMITTED] 46017.093

[GRAPHIC] [TIFF OMITTED] 46017.094

[GRAPHIC] [TIFF OMITTED] 46017.095

[GRAPHIC] [TIFF OMITTED] 46017.096

[GRAPHIC] [TIFF OMITTED] 46017.097

[GRAPHIC] [TIFF OMITTED] 46017.098

[GRAPHIC] [TIFF OMITTED] 46017.099

[GRAPHIC] [TIFF OMITTED] 46017.100

[GRAPHIC] [TIFF OMITTED] 46017.101

[GRAPHIC] [TIFF OMITTED] 46017.102

[GRAPHIC] [TIFF OMITTED] 46017.103

[GRAPHIC] [TIFF OMITTED] 46017.104

[GRAPHIC] [TIFF OMITTED] 46017.105

[GRAPHIC] [TIFF OMITTED] 46017.106

[GRAPHIC] [TIFF OMITTED] 46017.107

[GRAPHIC] [TIFF OMITTED] 46017.108

[GRAPHIC] [TIFF OMITTED] 46017.109

[GRAPHIC] [TIFF OMITTED] 46017.110

[GRAPHIC] [TIFF OMITTED] 46017.111

[GRAPHIC] [TIFF OMITTED] 46017.112

[GRAPHIC] [TIFF OMITTED] 46017.113

[GRAPHIC] [TIFF OMITTED] 46017.114

[GRAPHIC] [TIFF OMITTED] 46017.115

[GRAPHIC] [TIFF OMITTED] 46017.116

[GRAPHIC] [TIFF OMITTED] 46017.117

[GRAPHIC] [TIFF OMITTED] 46017.118

[GRAPHIC] [TIFF OMITTED] 46017.119

[GRAPHIC] [TIFF OMITTED] 46017.120

[GRAPHIC] [TIFF OMITTED] 46017.121

[GRAPHIC] [TIFF OMITTED] 46017.122

[GRAPHIC] [TIFF OMITTED] 46017.123

[GRAPHIC] [TIFF OMITTED] 46017.124

[GRAPHIC] [TIFF OMITTED] 46017.125

[GRAPHIC] [TIFF OMITTED] 46017.126

[GRAPHIC] [TIFF OMITTED] 46017.127

[GRAPHIC] [TIFF OMITTED] 46017.128

[GRAPHIC] [TIFF OMITTED] 46017.129

[GRAPHIC] [TIFF OMITTED] 46017.130

[GRAPHIC] [TIFF OMITTED] 46017.131

[GRAPHIC] [TIFF OMITTED] 46017.132

[GRAPHIC] [TIFF OMITTED] 46017.133

[GRAPHIC] [TIFF OMITTED] 46017.134

[GRAPHIC] [TIFF OMITTED] 46017.135

[GRAPHIC] [TIFF OMITTED] 46017.136

[GRAPHIC] [TIFF OMITTED] 46017.137

[GRAPHIC] [TIFF OMITTED] 46017.138

[GRAPHIC] [TIFF OMITTED] 46017.139

[GRAPHIC] [TIFF OMITTED] 46017.140

[GRAPHIC] [TIFF OMITTED] 46017.141

[GRAPHIC] [TIFF OMITTED] 46017.142

[GRAPHIC] [TIFF OMITTED] 46017.143

[GRAPHIC] [TIFF OMITTED] 46017.144

[GRAPHIC] [TIFF OMITTED] 46017.145

[GRAPHIC] [TIFF OMITTED] 46017.146

[GRAPHIC] [TIFF OMITTED] 46017.147

[GRAPHIC] [TIFF OMITTED] 46017.148

[GRAPHIC] [TIFF OMITTED] 46017.149

[GRAPHIC] [TIFF OMITTED] 46017.150

[GRAPHIC] [TIFF OMITTED] 46017.151

[GRAPHIC] [TIFF OMITTED] 46017.152

[GRAPHIC] [TIFF OMITTED] 46017.153

[GRAPHIC] [TIFF OMITTED] 46017.154

[GRAPHIC] [TIFF OMITTED] 46017.155

[GRAPHIC] [TIFF OMITTED] 46017.156

[GRAPHIC] [TIFF OMITTED] 46017.157

[GRAPHIC] [TIFF OMITTED] 46017.158

[GRAPHIC] [TIFF OMITTED] 46017.159

[GRAPHIC] [TIFF OMITTED] 46017.160

[GRAPHIC] [TIFF OMITTED] 46017.161

[GRAPHIC] [TIFF OMITTED] 46017.162

[GRAPHIC] [TIFF OMITTED] 46017.163

[GRAPHIC] [TIFF OMITTED] 46017.164

[GRAPHIC] [TIFF OMITTED] 46017.165

[GRAPHIC] [TIFF OMITTED] 46017.166

[GRAPHIC] [TIFF OMITTED] 46017.167

[GRAPHIC] [TIFF OMITTED] 46017.168

[GRAPHIC] [TIFF OMITTED] 46017.169

[GRAPHIC] [TIFF OMITTED] 46017.170

[GRAPHIC] [TIFF OMITTED] 46017.171

[GRAPHIC] [TIFF OMITTED] 46017.172

[GRAPHIC] [TIFF OMITTED] 46017.173

[GRAPHIC] [TIFF OMITTED] 46017.174

[GRAPHIC] [TIFF OMITTED] 46017.175

[GRAPHIC] [TIFF OMITTED] 46017.176

[GRAPHIC] [TIFF OMITTED] 46017.177

[GRAPHIC] [TIFF OMITTED] 46017.178

[GRAPHIC] [TIFF OMITTED] 46017.179

[GRAPHIC] [TIFF OMITTED] 46017.180

[GRAPHIC] [TIFF OMITTED] 46017.181

[GRAPHIC] [TIFF OMITTED] 46017.182

[GRAPHIC] [TIFF OMITTED] 46017.183

[GRAPHIC] [TIFF OMITTED] 46017.184

[GRAPHIC] [TIFF OMITTED] 46017.185

[GRAPHIC] [TIFF OMITTED] 46017.186

[GRAPHIC] [TIFF OMITTED] 46017.187

[GRAPHIC] [TIFF OMITTED] 46017.188

[GRAPHIC] [TIFF OMITTED] 46017.189

[GRAPHIC] [TIFF OMITTED] 46017.190

[GRAPHIC] [TIFF OMITTED] 46017.191

[GRAPHIC] [TIFF OMITTED] 46017.192

[GRAPHIC] [TIFF OMITTED] 46017.193

[GRAPHIC] [TIFF OMITTED] 46017.194

[GRAPHIC] [TIFF OMITTED] 46017.195

[GRAPHIC] [TIFF OMITTED] 46017.196

[GRAPHIC] [TIFF OMITTED] 46017.197

[GRAPHIC] [TIFF OMITTED] 46017.198

[GRAPHIC] [TIFF OMITTED] 46017.199

[GRAPHIC] [TIFF OMITTED] 46017.200

[GRAPHIC] [TIFF OMITTED] 46017.201

[GRAPHIC] [TIFF OMITTED] 46017.202

[GRAPHIC] [TIFF OMITTED] 46017.203

[GRAPHIC] [TIFF OMITTED] 46017.204

[GRAPHIC] [TIFF OMITTED] 46017.205

[GRAPHIC] [TIFF OMITTED] 46017.206

[GRAPHIC] [TIFF OMITTED] 46017.207

[GRAPHIC] [TIFF OMITTED] 46017.208

[GRAPHIC] [TIFF OMITTED] 46017.209

[GRAPHIC] [TIFF OMITTED] 46017.210

[GRAPHIC] [TIFF OMITTED] 46017.211

[GRAPHIC] [TIFF OMITTED] 46017.212

[GRAPHIC] [TIFF OMITTED] 46017.213

[GRAPHIC] [TIFF OMITTED] 46017.214

[GRAPHIC] [TIFF OMITTED] 46017.215

[GRAPHIC] [TIFF OMITTED] 46017.216

                                 <all>

</pre></body></html>
